  September 28, 2004




Financial Management
Army General Fund Controls Over
Abnormal Balances For Field
Accounting Activities
(D-2004-118)




                 Department of Defense
             Office of the Inspector General

                                   Constitution of
                                  the United States

     A Regular Statement of Account of the Receipts and Expenditures of all public
     Money shall be published from time to time.
                                                             Article I, Section 9
  Additional Copies
  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at http://www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit, Audit Followup and Technical
  Support at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact Audit Followup and
  Technical Support at (703) 604-8940 (DSN 664-8940) or fax (703) 604-8932.
  Ideas and requests can also be mailed to:

                   ODIG-AUD (ATTN: AFTS Audit Suggestions)
                   Inspector General of the Department of Defense
                         400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
DFAS                  Defense Finance and Accounting Service
FMR                   Financial Management Regulation
IG DoD                Inspector General of the Department of Defense
         Office of the Inspector General of the Department of Defense
Report No. D-2004-118                                               September 28, 2004
  (Project No. D2004FI-0121)

        Army General Fund Controls Over Abnormal Balances for
                      Field Accounting Activities

                                Executive Summary

Who Should Read This Report and Why? DoD and Army management responsible
for promoting proper financial management and preparing financial statements should
read this report. The report identifies a control weakness regarding abnormal balances in
Army General Fund trial balance data, which led to material uncertainties in the First
Quarter FY 2004 Army General Fund Financial Statements.

Background. The audit was performed in support of the Chief Financial Officers Act of
1990, as amended by the Federal Financial Management Act of 1994. This report is a
result of work performed in support of the audit of the Army General Fund Financial
Statements.

The Defense Finance and Accounting Service (DFAS) Indianapolis provides finance and
accounting support to the Army and Defense agencies. Support includes maintaining
accounting records at the Department of the Army or Defense agency level (departmental
accounting records). DFAS Indianapolis also prepares financial statements using general
ledger trial balances and financial data on the status of appropriations submitted by DoD
field accounting activities and other sources. A general ledger account balance is
abnormal when the reported balance does not comply with the normal debit or credit
balance established in the general ledger chart of accounts. For example, Accounts
Receivable normally has a debit balance; therefore, a credit balance is an abnormal
balance. An abnormal general ledger account balance is an accounting irregularity
caused by the incorrect posting of transactions or by an operational issue such as over-
obligation. Because amounts posted in general ledger accounts are used to prepare
financial statements, an abnormal balance will cause financial statement misstatements.

Results. DFAS Indianapolis did not effectively detect, report, and correct abnormal
balances in the Army General Fund accounting records. The First Quarter FY 2004 trial
balance data for the Army General Fund included 236 general ledger accounts with
$884.4 billion of unresolved abnormal balances. The First Quarter FY 2004 Army
General Fund Financial Statements did not disclose unresolved abnormal balances. As a
result, the footnote disclosures in the First Quarter FY 2004 Army General Fund
Financial Statements were inaccurate and misleading, and the financial statements are at
risk for material misstatement. The errors causing abnormal balances may also be
perpetuated in Defense Departmental Reporting System-Budgetary Module. The Under
Secretary of Defense (Comptroller) should revise DoD Regulation 7000.14-R to require
financial statement footnote disclosure of the amounts of unresolved abnormal balances.
The Director of DFAS Indianapolis should require that the accounting activities identify
and correct trial balance abnormal balances prior to the monthly submission of the trial
balance data to DFAS Indianapolis and compile an Army General Fund Chart of
Accounts that identifies the normal balances of general ledger accounts. The Assistant
Secretary of the Army (Financial Management and Comptroller) should require serviced
Army activities to work with DFAS field accounting activities to identify, research, and
correct abnormal balances in trial balance data. (See the Finding section of the report for
the detailed recommendations.)

Management Comments and Audit Response. The Deputy Chief Financial Officer of
DoD concurred and stated that her office will update the DoD Financial Management
Regulation to require the disclosure of unresolved abnormal balances for all proprietary
and budgetary general ledger accounts in the footnotes to the financial statements. The
Director of DFAS Accounting Services–Army concurred with the recommendations and
stated that procedures and guidance have been published to improve general reporting
relative to material abnormal proprietary balances. The Director will also require field
accounting activities to identify, research, and correct abnormal balances prior to
submissions to the Departmental Accounting Directorate and will require field sites to
provide explanations of abnormal proprietary balances material to the Army’s financial
statements. Implementation of the recommendations will be directed at the business
processes that are material to the Army’s financial statements and will exclude budgetary
accounts. We consider the Director’s comments partially responsive. We request that
the Director provide comments by October 29, 2004, on the researching of abnormal
balances and on the procedures that will be implemented as part of the Defense
Departmental Reporting System-Budgetary Module to detect and correct all abnormal
balances (including abnormal balances in budgetary accounts.). The Assistant Secretary
of the Army (Financial Management and Comptroller) concurred with the
recommendation directed to the Army and stated that the Army’s serviced activities will
continue to work with DFAS field accounting activities to correct abnormal balances.
See the Finding section of the report for a discussion of management comments and the
Management Comments section of the report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                i

Background                                      1

Objectives                                      2

Finding
     Abnormal Balances                           3

Appendixes
     A. Scope and Methodology                   13
         Management Control Program Review      13
         Prior Coverage                         14
     B. Abnormal Balances                       15
     C. Report Distribution                     24

Management Comments
     Under Secretary of Defense (Comptroller)   27
     Defense Finance and Accounting Service     29
     Department of the Army                     31
Background
    We performed this audit in support of Public Law 101-576, the “Chief Financial
    Officers Act of 1990,” November 15, 1990, as amended by Public Law 103-356,
    the “Federal Financial Management Act of 1994,” October 13, 1994. The
    Inspector General of the Department of Defense (IG DoD) is required to audit the
    annual financial statements of the Department of Defense. This report is a result
    of work performed in support of the audit of the Army General Fund Financial
    Statements.

    Army General Fund Financial Statements. The First Quarter FY 2004 Army
    General Fund Financial Statements consisted of the consolidated balance sheet,
    consolidated statements of net cost and changes in net position, combined
    statements of budgetary resources and financing, statement of custodial activity,
    and supporting footnotes. The First Quarter FY 2004 Army General Fund
    Financial Statements reported total assets of $318.4 billion, total liabilities of
    $59.7 billion, and budgetary resources of $156.8 billion.

    Defense Finance and Accounting Service, Indianapolis. The Defense Finance
    and Accounting Service (DFAS) Indianapolis provides finance and accounting
    support to the Army. Support includes maintaining accounting records at the
    Department of the Army level (departmental accounting records). DFAS
    Indianapolis also prepares financial statements using general ledger trial balances
    and financial data on the status of appropriations submitted by DoD field
    accounting activities and other sources.

            Field Accounting Activities. Field accounting activities are responsible
    for recording, summarizing, verifying, and reporting accounting transactions
    submitted by serviced Army activities. The field accounting activities are
    responsible for submitting the monthly general ledger trial balance data (trial
    balance data) to DFAS Indianapolis.

             General Ledger Accounts. A chart of accounts identifies the accounts
    used by field accounting systems. It includes the account number, account title,
    and the normal balance (debit or credit) for both proprietary and budgetary
    accounts. The field accounting systems use an aberration of the obsolete DoD
    account numbers and are not compliant with U.S. Government Standard General
    Ledger requirements. Proprietary accounts are used to track the balances of
    assets, liabilities, net position, revenues, and expenses. Budgetary accounts are
    used to track the effect of financial events on the sources and uses of budgetary
    resources, commonly referred to as budget execution.

    Abnormal Balance Definition. A general ledger account balance is abnormal
    when the reported balance does not comply with the normal debit or credit
    balance established in the general ledger chart of accounts. For example,
    Accounts Receivable normally has a debit balance; therefore, a credit balance is
    an abnormal balance. An abnormal general ledger account balance is an
    accounting irregularity caused by the incorrect posting of transactions or by an




                                         1
    operational issue such as over-obligation. Because amounts posted in general
    ledger accounts are used to prepare financial statements, an abnormal balance will
    cause financial statement misstatements.

    Abnormal Balance Reconciliation and Reporting Requirements. DoD
    Regulation 7000.14-R, “DoD Financial Management Regulation,” (FMR),
    volume 6A, requires the research and resolution, if possible, of abnormal
    balances. The FMR, volume 6B, requires financial statement footnote disclosure
    of abnormal balances in accounts receivable due to the allocation of undistributed
    collections, abnormal balances that affect the Statement of Budgetary Resources,
    and all accounting entries to eliminate abnormal balances made at any level
    during the financial accounting and reporting process if: (a) the line item or
    account, which contains the abnormal balance is material to the financial
    statements, (b) the aggregate total of such entries made to all line items or
    accounts on an individual financial statements is material, (c) the DoD accounting
    site was unable to resolve the abnormal balance, or (d) the DoD accounting site
    was unable to determine that the potential impact of the abnormal balance would
    be immaterial.

    DFAS Indianapolis Regulation 37-1, (Regulation 37-1) “Finance and Accounting
    Policy Implementation,” Chapter 27, March 2002, requires reconciling subsidiary
    records to the general ledger. These reconciliations should include researching
    differences and erroneous values, and correcting them promptly by processing
    transactions in the books of original entry. Abnormal balances or questionable
    account balances are to be reported to the serviced activity and assistance in
    resolving the abnormalities requested as appropriate.

    Defense Departmental Reporting System-Budgetary Module. The Defense
    Departmental Reporting System-Budgetary Module (Budgetary Module) is
    designed to standardize the DoD departmental reporting process and produce the
    monthly departmental reports based on the United States Standard General
    Ledger and standard attributes. The Budgetary Module application is designed to
    replace the current legacy departmental budgetary reporting systems.
    Implementation of the Budgetary Module for the Army General Fund is
    scheduled for February 2005.


Objectives
    The overall audit objective was to determine if DFAS Indianapolis had adequate
    controls for detecting and correcting abnormal balances reported by field
    accounting activities for Army General Fund accounts. We also evaluated the
    management control program as it related to the audit objective. See Appendix A
    for a discussion of the scope and methodology, our review of the management
    control program, and prior coverage related to the objectives.




                                        2
           Abnormal Balances
           DFAS Indianapolis did not effectively detect, report, and correct abnormal
           balances included in the Army General Fund accounting records. The
           First Quarter FY 2004 trial balance data for the Army General Fund
           included 236 general ledger accounts with $884.4 billion of unresolved
           abnormal balances. The First Quarter FY 2004 Army General Fund
           Financial Statements did not adequately disclose unresolved abnormal
           balances. These conditions occurred because DFAS Indianapolis
           procedures were not adequate to detect and correct abnormal balances.
           Specifically, DFAS Indianapolis personnel did not:

              •   require that field accounting activities review their trial balances
                  for abnormal balances prior to submission to DFAS Indianapolis,

              •   review trial balances submitted by accounting activities and
                  identify abnormal balances,

              •   notify the accounting activities of abnormal balances and require
                  appropriate corrective action, and

              •   maintain a current Army General Fund chart of accounts that
                  identifies the normal balances for general ledger accounts.

           In addition, the FMR did not require sufficient financial statement
           disclosure of unresolved abnormal balances. As a result, the footnote
           disclosures in the First Quarter FY 2004 Army General Fund Financial
           Statements were inaccurate and misleading, and the financial statements
           are at risk for material misstatement. There is also the potential for the
           errors causing abnormal balances to be perpetuated in the Defense
           Departmental Reporting System-Budgetary Module (Budgetary Module).


Detecting, Reporting, and Correcting Abnormal Balances
    Trial Balances with Abnormal Balances. We reviewed the First Quarter
    FY 2004 trial balance data submitted by field accounting activities. The trial
    balance data contained 420 general ledger accounts with recorded transactions.
    There were 236 (or 56 percent) of the 420 general ledger accounts with abnormal
    balances that were not effectively detected, reported, and corrected. The
    236 general ledger accounts contained $884.4 billion of abnormal balances. Of
    those accounts, 83 were budgetary accounts. These 83 general ledger accounts
    contained $775.2 billion in abnormal balances. The remaining $109.2 billion in
    abnormal balances was reported for 153 proprietary general ledger accounts. Of
    the 236 general ledger accounts with abnormal balances, six contained abnormal




                                        3
balances exceeding $10.0 billion, as shown in Table 1. Appendix B contains a
complete list of the 236 general ledger accounts with abnormal balances in the
First Quarter FY 2004 trial balance data.

              Table 1. Abnormal Balances Exceeding $10 Billion.

 Account                        Title                      Abnormal Balance
                                                                Amount
 456100      Unalloted Allocation-Direct Program-          $ 376,248,475,582.44
             Current Period
 445000      Authority Available for Apportionment            329,397,831,487.83

 331800      Cumulative Results of Operations-Other            55,651,083,800.87
             Appropriations
 453000      Allocation from Others                            24,041,294,454.96

 332800      Net Results of Operations-Other                   19,272,790,014.61
             Appropriations
 101500      Undistributed Disbursements                       12,289,534,196.41



Abnormal Balances not only distort the Army General Fund financial statements,
but also indicate internal control and operational deficiencies. The existence of
abnormal balances may conceal instances of fraud. The following examples of
abnormal balances indicate internal control and operational deficiencies:

   •   Accounts Payable-Government-Current (211100). This Accounts
       Payable account represents amounts owed to Federal agencies for goods
       and services received by the Army. The field accounting activities
       reported $988.8 million in abnormal balances. Abnormal balances in
       Accounts Payable indicate disbursements in excess of accruals, or in the
       absence of disbursements, negative accruals. These can be caused by
       erroneous duplicate payments or erroneous accounting entries.

   •   Appropriated Capital (310000). This Appropriated Capital account
       represents amounts appropriated by Congress minus disbursements. The
       field accounting activities reported $3.3 billion in abnormal balances.
       Abnormal balances in Appropriated Capital indicate that the Army
       General Fund has spent more funds than appropriated by Congress. This
       can be caused by improper classifications of transactions and it may
       indicate violations of the Antideficiency Act.

   •   Uncommitted/Unobligated Allotment-Direct Authority-Current
       Period (461100). The Uncommitted/Unobligated Allotment-Direct
       Authority-Current Period account represents the value of direct program
       obligation authority not yet committed or obligated. The field accounting
       activities reported $3.6 billion in abnormal balances. Abnormal balances
       in the Uncommitted/Unobligated Allotment-Direct Authority-Current



                                    4
           Period account indicate that the Army General Fund has committed more
           funds than were allotted. This can be caused by erroneous accounting
           entries, and it may indicate violations of the Antideficiency Act.

       •   Other Services-Nongovernment (612000). This Other Services-
           Nongovernment account represents the cumulative fiscal year-to-date
           expenses for contracts that are not properly chargeable to another expense
           account. The field accounting activities reported $1.5 billion in abnormal
           balances. Abnormal balances in Other Services-Nongovernment indicate
           the illogical situation of the Army General Fund using someone’s services
           and the provider of those services is paying the Army General Fund to do
           so. Abnormal Balances in Other Services-Nongovernment can be caused
           by erroneous accounting entries.

    Financial Statement Disclosure of Abnormal Balances. The First Quarter
    FY 2004 Army General Fund Financial Statements did not adequately disclose
    the existence of unresolved abnormal balances in the trial balance data. The only
    abnormal balance identified and explained in the First Quarter FY 2004 Army
    General Fund Financial Statements was an abnormal balance in the amount of
    $1,751,000 that was reported as part of Other Liabilities. Note 1 of the First
    Quarter FY 2004 Army General Fund Financial Statements states, “The Army is
    unable to fully implement all elements of Federal Generally Accepted Accounting
    Principles and Office of Management and Budget Bulletin No. 01-09 due to
    limitations of its financial and non-financial management processes and systems.”
    This disclosure is not sufficient to notify the reader of the extent of abnormal
    balances in the trial balance data, or of the financial statement lines and footnotes
    that those abnormal balances affect. Since the DFAS Indianapolis compilation
    procedures mask large numbers of abnormal balances, full disclosure is especially
    important.


DFAS Indianapolis Procedures
    Abnormal balances should be researched and corrected so that DFAS Indianapolis
    can use the trial balance data reported by field accounting activities when
    compiling the Army General Fund financial statements. However, the procedures
    and processes that DFAS Indianapolis used to compile the Army General Fund
    Financial Statements concealed the presence of abnormal balances. DFAS
    Indianapolis personnel consolidated the trial balance data received from all field
    accounting activities at the appropriation level. The normal balance amounts
    reported in the trial balance data exceeded the abnormal balance amounts
    resulting in a net normal balance for 193 of the 236 general ledger accounts.
    DFAS Indianapolis used other compilation procedures to conceal the remaining
    43 general ledger accounts that had a net abnormal balance.

    The trial balance data reports budgetary account information; however, DFAS
    Indianapolis did not use the budgetary account information contained in the trial
    balance data to compile the financial statements. Instead, DFAS Indianapolis
    used budgetary status of appropriation data as the source of budgetary account
    information for the financial statements. In addition, the proprietary accounts in


                                          5
           the trial balance data are adjusted to match the budgetary status of appropriation
           data. Both the budgetary and proprietary account information contained in the
           trial balance data and the status of appropriation data come from the same source
           transactions at field accounting activities, and should be reconcilable. However,
           DFAS Indianapolis forces the general ledger data to agree with budgetary status
           of appropriation data without reconciling the differences or determining which
           data source is correct. DFAS Indianapolis should:

                   •   require that field accounting activities review their trial balances for
                       abnormal balances,

                   •   review trial balances submitted by accounting activities and identify
                       abnormal balances,

                   •   notify the field accounting activities of abnormal balances and require
                       corrective action, and

                   •   maintain a current Army General Fund chart of accounts that identifies
                       the normal balances for general ledger accounts.

           Field Accounting Activity Standard Operating Procedures. We contacted
           11 field accounting activities and obtained their standard operating procedures for
           reviewing the general ledger for abnormal balances prior to their monthly
           submission of the trial balance data to DFAS Indianapolis. We selected these
           particular field accounting activities because of the significant level of abnormal
           balances contained in their trial balance data. The First Quarter FY 2004 trial
           balance data submitted by these field accounting activities contained
           $285.4 billion of abnormal balances. Only 1 of the 11 field accounting activities
           had procedures to review the trial balance data for abnormal balances prior to
           submission to DFAS Indianapolis. While most of the field accounting activities
           had standard operating procedures that stated that abnormal balances identified by
           DFAS Indianapolis should be researched, 10 of the 11 field accounting activities
           did not have standard operating procedures that took a proactive approach to
           identify and correct abnormal balances in the trial balance data prior to the
           submission to DFAS Indianapolis. Because the transactional accounting data
           underlying the abnormal balances is maintained at the serviced Army activities,
           their help is essential to identify, research, and correct abnormal balances. Field
           accounting activities should be required to review the trial balance data for
           abnormal balances prior to submitting it to DFAS Indianapolis; and serviced
           Army activities should be actively involved in identifying, researching, and
           correcting abnormal balances.

           DFAS Indianapolis Trial Balance Review. DFAS Indianapolis did not
           adequately review trial balances submitted by field accounting activities for
           abnormal balances. DFAS Indianapolis used a FoxPro∗ database program to
           query for abnormal balances in the monthly trial balance data submitted by the
           accounting activities. This program was designed to search for abnormal
           balances in 125 general ledger accounts. However, we identified a design error in

∗
    FoxPro is a Microsoft database management system.



                                                    6
the program that prevented the identification of abnormal balances in 15 general
ledger accounts used to record liabilities. The First Quarter FY 2004 trial balance
data contained $2.3 billion in abnormal balances for 7 of the 15 of the
unidentified general ledger accounts. Table 2 identifies the seven general ledger
accounts and the abnormal balance amount in the First Quarter FY 2004 trial
balance data.

 Table 2. Abnormal Balances in Liability Accounts Excluded From DFAS
                         Indianapolis Query

 Account                          Title                    Abnormal Balance
                                                            in Trial Balance
                                                                  Data
 221100      Accrued Payroll – Civilian                    $     40,536,906.52

 221200      Accrued Payroll-Military                          1,874,690,465.38

 221300      Accrued Payroll-Civilian-Employer                    16,145,298.83
             Share-Fringe Benefits
 221400      Accrued Payroll-Military-Employer                   155,444,653.83
             Share-Fringe Benefits
 222100      Accrued Annual Leave-Civilian-                          877,825.16
             Unfunded
 292000      Contingent Liabilities-Non Government-              231,363,440.00
             Unfunded-Non Current
 299000      Other Liabilities                                      1,750,884.24

                          Total                             $ 2,320,809,473.96


The FoxPro query only checked trial balance data for abnormal balances in
110 general ledger accounts. Only 65 of the 110 general ledger accounts checked
by the FoxPro query appeared among the 420 general ledger accounts. DFAS
Indianapolis did not check for abnormal balances reported for 355 general ledger
accounts contained in the First Quarter FY 2004 trial balance data. In order to
adequately check the monthly trial balance data submitted by accounting
activities, the FoxPro query should check for abnormal balances in all of the
accounts used in Army General Fund trial balance submissions.

Notifying Accounting Activities of Abnormal Balances. DFAS Indianapolis
personnel stated that the responsibility for notifying accounting activities that
their trial balance data contained abnormal balances was divided among four
personnel. Each of the personnel was to review the abnormal balances identified
by the FoxPro query, identify abnormal balances submitted by the accounting
activities they were responsible for, and notify the responsible accounting
activities that their trial balance data contained abnormal balances. We
determined that for the First Quarter FY 2004 trial balance data, all four DFAS
Indianapolis personnel should have sent out notifications of abnormal balances to
the accounting activities. However, we were only able to verify that one of the
four DFAS Indianapolis personnel sent notification to the accounting activities.


                                      7
    The notification should have identified 142 abnormal balances requiring
    resolution; however, only 111 abnormal balances were forwarded to the
    accounting activities for correction. In addition, while DFAS Indianapolis
    requested that accounting activities take corrective action, DFAS Indianapolis did
    not request that the accounting activities notify DFAS Indianapolis of the
    corrective action taken.

    DFAS Indianapolis should not accept accounting activity trial balance data that
    contain abnormal balances. Preparing financial statements based on trial balance
    data that contain abnormal balances places the financial statements at risk for
    material misstatement. DFAS Indianapolis should notify accounting activities of
    abnormal balances in their trial balance data, request the accounting activities to
    research and take the appropriate corrective action, and require that the
    accounting activity notify DFAS Indianapolis of the corrective action taken or of
    the inability of the accounting activity to reconcile the abnormal balance.
    Army General Fund Chart of Accounts. DFAS Indianapolis did not have a
    chart of accounts that identified the account code, account title, and normal
    balance for the general ledger accounts used for the Army General Fund.
    DFAS Indianapolis personnel were able to provide an archived section of
    Regulation 37-1 that contained the DoD chart of accounts. However, this DoD
    chart of accounts was not contained in the current version of Regulation 37-1.
    We were unable to use Regulation 37-1 to identify all of the account titles and
    normal balances of the accounts contained in the First Quarter FY 2004 trial
    balance data. A current chart of accounts that identifies the normal balances of
    the general ledger accounts is necessary for DFAS Indianapolis to determine if
    the accounting activities are submitting trial balances with abnormal balances. As
    additional general ledger accounts are defined and used for the Army General
    Fund, the Army General Fund chart of accounts should be updated to reflect the
    use and to identify the normal balance for those accounts.


Abnormal Balance Disclosure Requirements
    Although the FMR requires the financial statement footnote disclosure of certain
    accounting entries to eliminate abnormal balances, it does not require the footnote
    disclosure of unresolved abnormal balances that are not eliminated by an
    accounting entry. As part of the Army General Fund Financial Statement
    compilation process, the Army General Fund trial balance data submitted by the
    accounting activities are consolidated at the appropriation level. Unresolved
    abnormal balances can “disappear” simply by the process of combining smaller
    abnormal balances reported for a general ledger account with larger normal
    balances reported for the same general ledger account. However, this
    “disappearance” does not mean that the abnormal balances were resolved.
    Federal Accounting Standards Advisory Board Statement of Federal Financial
    Accounting Concepts No. 1, states that financial reporting should be reliable; that
    is, the information presented should be verifiable and free from bias and should
    accurately report what it purports to represent. To be reliable, financial reporting
    needs to be comprehensive. Nothing material should be omitted from the
    information necessary to accurately report the underlying events and conditions.


                                         8
    In order for the Army General Fund Financial Statements to be reliable and
    accurately report what they purport to represent, the FMR should require the
    financial statement disclosure of unresolved abnormal balances appearing in the
    trial balance data, regardless of whether an actual accounting entry was done to
    eliminate the abnormal balance or if the abnormal balance simply “disappeared”
    as the result of the Army General Fund Financial Statement compilation process.


Conclusion
    There is the potential for errors causing abnormal balances to be perpetuated in
    the Budgetary Module when it is implemented. Existing Army General Fund
    finance and accounting systems will act as feeder systems to the Budgetary
    Module and will provide trial balance data. If DFAS procedures to report, detect,
    and correct abnormal balances in the Army General Fund trial balance data are
    not improved, trial balance data with abnormal balances could be provided to the
    Budgetary Module, which could render the Army General Fund Financial
    Statements unable to earn an unqualified audit opinion.


Recommendations, Management Comments, and Audit
Response.
    1. We recommend that the Under Secretary of Defense (Comptroller) revise
    DoD Financial Management Regulation, DoD Regulation 7000.14-R to
    require the disclosure of the amounts of unresolved abnormal balances for
    all financial statement lines impacted in the Notes to the Principal
    Statements.

    Management Comments. The Deputy Chief Financial Officer in the Office of
    the Under Secretary of Defense (Comptroller/Chief Financial Officer) concurred,
    stating that her office will update the DoD Financial Management Regulation to
    require the disclosure of unresolved abnormal balances for all proprietary and
    budgetary general ledger accounts in the footnotes to the financial statements.
    The estimated completion date is September 30, 2004. The Under Secretary will
    also require the Army to include unresolved abnormal balances in field
    accounting data in the Army Mid-Range Improvement Plan as a financial
    statement deficiency requiring correction.

    2. We recommend that the Director of the Defense Finance and Accounting
    Service Center Indianapolis:

             a. Update the Foxpro query used to detect abnormal balances so that
    it will check all general ledger accounts used by the Army General Fund.
    Management Comments. The Director of DFAS Accounting Services–Army
    concurred, stating DFAS has taken action to update the program. The estimated
    completion date is October 31, 2004.



                                        9
      b. Update DFAS Indianapolis Regulation 37-1, “Finance and
Accounting Policy Implementation,” to establish and implement detailed
procedures that require field accounting activities to identify and correct
abnormal balances, review the monthly trial balances submitted for Army
General Fund, and notify accounting offices of abnormal balances.

              (i) Require that field accounting activities work with serviced
Army activities to identify, research, and correct abnormal balances in trial
balance data prior to the monthly submission of the trial balance data to
DFAS Indianapolis.

Management Comments. The Director of DFAS Accounting Services–Army
concurred with requiring field activities to identify, research, and correct
abnormal balances prior to submissions to the Departmental Accounting
Directorate. The estimated completion date is October 31, 2004.
              (ii) Use the updated query to check the accounting activities’
monthly trial balances for abnormal balances.

Management Comments. The Director of DFAS Accounting Services–Army
stated that DFAS concurs with the IG DoD finding related to the Foxpro
abnormal balance query and has taken action to update the program. The
estimated completion date is October 31, 2004.

               (iii) Notify the accounting activities of abnormal balances
contained in their monthly trial balances and require explanations of the
corrective actions taken by accounting activities to resolve the abnormal
balances.

Management Comments. The Director of DFAS Accounting Services–Army
stated that DFAS will only require field accounting sites to provide explanations
of abnormal proprietary balances material to the Army’s financial statements.
Abnormal balances related to budgetary accounts included on the general ledgers
of field activities will be excluded from review because DFAS does not use that
information to support the financial statements. Instead, DFAS uses information
from budgetary status reports. Approximately 88 percent of the abnormal
balances identified in the report relate to budgetary accounts.

Audit Response. The Director’s comments are partially responsive to the
recommendation. DFAS Indianapolis Regulation 37-1, “Finance and Accounting
Policy Implementation,” was updated in July 2004 to require DFAS Indianapolis
to notify accounting activities of targeted abnormal proprietary balances
contained in their monthly trial balances and require explanations of the
corrective actions taken. Accounting activities are required to submit an
explanation to DFAS Indianapolis of the corrective actions taken to resolve
abnormal proprietary balances targeted by DFAS Indianapolis as material to the
Army’s financial statements.

DFAS Indianapolis is directing its recommendation implementation efforts at
abnormal proprietary balances material to the Army’s financial statements. Both
the budgetary and proprietary account information contained in the trial balance


                                    10
data and the status of appropriation data come from the same source transactions
at field accounting activities, and should be reconcilable. However, DFAS
Indianapolis forces the general ledger data to agree with budgetary status of
appropriation data without reconciling the differences or determining which data
source is correct. Also, the Budgetary Module will use trial balance data to
prepare FY 2005 reports for the Army. Therefore, it is imperative that the
problems causing all abnormal balances are corrected. In addition, the size of the
abnormal balance does not identify whether the abnormal balance is being caused
by an error that is overstating or understating the general ledger account balance
by a material amount. Identifying and researching all abnormal balances is
required in order to determine if an abnormal balance caused a material
misstatement to an account. We request that the Director of DFAS Accounting
Services–Army provide additional comments on whether all abnormal balances
will be identified and researched in order to determine if they are material to the
Army statements. In addition, the comments should address whether the
abnormal balances in aggregate cause a material misstatement.

The DFAS Indianapolis Budget Execution Reports Division, an area separate
from Army Audited Financial Statements Division, is performing abnormal
balance reviews of the budgetary account balances used for the Army General
Fund financial statements. This process will continue until implementation of the
Budgetary Module, which is scheduled to occur after the start of calendar
year 2005. Once the Budgetary Module is implemented, different controls from
those currently used will be required to detect abnormal balances in the budgetary
accounts used for the Army General Fund. The Audited Financial Statements and
Budget Execution Reports Divisions should coordinate and ensure that the
problems causing abnormal balances are corrected prior to the implementation of
the Budgetary Module. Otherwise, the Budgetary Module will receive incorrect
data. We request that DFAS Indianapolis provide additional comments that
specifically identify (1) the procedures that will be implemented as part of the
Budgetary Module to detect and correct abnormal balances, (2) the specific
organization responsible for implementation of the abnormal balance detection
and correction procedures, and (3) the completion date of the corrective action.

             (iv) Compile, and update as necessary, an Army General Fund
Chart of Accounts that identifies the normal balances of the general ledger
accounts currently used for the Army General Fund.

Management Comments. The Director of DFAS Accounting Services–Army
stated that DFAS has published the chart of accounts used by the various field-
level systems in DFAS Indianapolis Regulation 37-1. The chart of accounts was
published July 2004.

3. We recommend that the Assistant Secretary of the Army (Financial
Management and Comptroller) require serviced Army activities to work
with DFAS field accounting activities to identify, research, and correct
abnormal balances in trial balance data.

Management Comments. The Assistant Secretary of the Army (Financial
Management and Comptroller) concurred and stated that the Army’s serviced
activities will continue to work with DFAS field accounting activities to correct


                                    11
abnormal balances. The Assistant Secretary of the Army (Financial Management
and Comptroller) stated that the Joint Reconciliation Process will continue to
emphasize the identification and correction of all abnormal balances.




                                  12
Appendix A. Scope and Methodology
    We reviewed the DFAS Indianapolis processes for detecting, reporting, and
    correcting abnormal balances contained in the Army General Fund trial balance
    data. Our review included analyzing standard operating procedures used by field
    accounting activities and interviews with DFAS Indianapolis personnel to obtain
    an understanding of the abnormal balance detection and correction process. We
    reviewed the adequacy of the DFAS Indianapolis Foxpro program used to detect
    abnormal balances. We also reviewed DoD guidance on financial statement
    disclosure of abnormal balances. We examined the First Quarter, FY 2004 Army
    General Fund trial balance data and compared the amounts it reported to the
    normal balances of general ledger accounts used for the Army General Fund.
    There were 420 general ledger accounts with recorded transactions in the trial
    balance data. We determined the normal balances for Army General Fund
    general ledger accounts through review of DoD general ledger guidance and
    through discussions with DFAS Indianapolis personnel.

    We performed this audit from March 2004 through May 2004 in accordance with
    generally accepted government auditing standards.

    Use of Computer-Processed Data. We used reports generated by accounting
    systems within DFAS Indianapolis and DFAS field accounting activities to
    perform this audit. We did not review the accounting systems used by DFAS
    Indianapolis and DFAS field accounting activities to prepare the Army General
    Fund trial balance data. Our review of DFAS Indianapolis controls over
    abnormal balances in the trial balance data casts doubts over the data’s validity.
    However, the lack of reliable trial balance information did not adversely affect
    our analysis.

    General Accounting Office High-Risk Area. The General Accounting Office
    has identified several high-risk areas in DoD. This report provides coverage of
    the Defense Financial Management high-risk area.


Management Control Program Review
    DoD Directive 5010.38, “Management Control (MC) Program,” August 26, 1996,
    and DoD Instruction 5010.40, “Management Control (MC) Program Procedures,”
    August 28, 1996, require DoD organizations to implement a comprehensive
    system of management controls that provides reasonable assurance that programs
    are operating as intended and to evaluate the adequacy of the controls.

    Scope of the Review of the Management Control Program. We reviewed the
    adequacy of DFAS Indianapolis management controls over abnormal balances in
    the Army General Fund trial balance data. We also reviewed the adequacy of
    management’s self-evaluation of those controls.

    Adequacy of Management Controls. We identified a material management
    control weakness for DFAS Indianapolis, as defined by DoD Instruction 5010.40.


                                         13
     DFAS Indianapolis management controls were not effective to detect, correct, and
     report abnormal balances in the Army General Fund trial balance data.
     Recommendations 1, 2.a., 2.b, and 3, if implemented, will correct the identified
     weakness. A copy of the report will be provided to the senior official responsible
     for management controls in DFAS Indianapolis.

     Adequacy of Management’s Self-Evaluation. DFAS Indianapolis officials
     identified the correction of abnormal balances in a timely manner as part of an
     assessable unit. However, the DFAS Indianapolis self-evaluation was not
     effective in identifying the management control weakness addressed by the audit.


Prior Coverage
     During the last 5 years, the Inspector General of the Department of Defense
     (IG DoD) and the U.S. Army Audit Agency have issued two reports related to
     Army General Fund abnormal balances.

IG DoD
     IG DoD Report No. D-2001-180, “Financial Information Compiled by DoD Field
     Accounting Sites,” September 13, 2001.

U.S. Army Audit Agency
     U.S. Army Audit Agency Audit Report AA 01-329, “Army’s General Fund
     Principal Financial Statements for Fiscal Year 2000: Adjustments to Financial
     Information at Defense Finance and Accounting Service-St. Louis,”
     June 29, 2001.




                                         14
Appendix B. Abnormal Balances
   The First Quarter FY 2004 trial balance data for the Army General Fund included
   the following 236 general ledger accounts with $884.4 billion of abnormal
   balances.

       Account                     Account Title                             Amount ($)
       Number*
       101011    Funds Collected                                               40,110,532.67
       101014    Funds Collected-Advances Received                             51,533,504.71
       101021    Funds Disbursed                                                3,742,477.11
       101031    Funds With Treasury                                            7,409,985.04
       101034    Fund Balance With Treasury-Advances                              152,989.90
                 Received
       101041    Undistributed Collections                                    27,059,993.57
       101042    Operating-Disbursed-By Others                                     6,491.34
       101048    Operating-Disbursed-Payroll                                       8,795.19
       101051    Undistributed Disbursements                                  38,873,424.21
       101100    Funds Collected                                           2,368,154,532.16
       101200    Funds Disbursed                                           2,963,359,262.75
       101300    Funds With Treasury                                       3,008,000,282.58
       101400    Undistributed Collections                                   373,708,163.06
       101500    Undistributed Disbursements                              12,289,534,196.41
       120000    Foreign Currency                                              3,465,493.64
       131013    Accounts Receivable-Non Corps-Other-DoD-                        587,443.69
                 Current
       131014    Accounts Receivable-Government Non-DoD-                            60,035.84
                 Current
       131035    Accounts Receivable-Public-Current                                90,579.79
       131051    Work in Process-Intra-District                                 4,732,703.19
       131052    Work in Process-Other-Corps                                      233,322.57
       131053    Work in Process-Non Corps-Other-DoD                            7,285,924.86
       131054    Work in Process-Government Non-DoD-                            1,002,015.91
                 Current
       131055    Work in Process-Public                                            53,600.24
       131100    Accounts Receivable-Government-Current                        13,448,050.26
       131300    Accounts Receivable-Public-Current                            28,463,279.06
       131500    Refunds Receivable-Government                                    138,727.66

   *
   The Headquarters Accounting and Reporting System uses six place account numbers that are an
   aberration of the obsolete DoD chart of accounts.

                                           15
Account                 Account Title                   Amount ($)
Number
131600    Refunds Receivable-Public                         263,755.34
131920    Allowance for Loss on Accounts Receivable-            138.00
          Public
141100    Travel Advances                                 1,539,329.37
141200    Advances to Contractors and Suppliers           5,333,483.06
141400    Advances-All Others-Public                     93,467,856.80
145300    Progress Payments Made to Others               42,399,822.51
152130    Inventory Held for Sale-On Hand                    70,939.39
158200    Work In Process-Contractor                     15,566,189.94
172010    Construction in Process-In House                  247,489.04
172012    Construction in Process-Contractor              2,452,499.26
172200    Construction in Process-Contractor             41,956,414.00
175010    Equipment in Use                                4,543,103.99
176300    Equipment with Contractors, Testing             1,388,503.00
          Agencies, Defense Industrial Facilities
177000    Equipment in Transit                             1,422,696.00
211012    Accounts Payable-Other-Corps-Current                 2,010.39
211013    Accounts Payable-Non Corps-Other DoD-               14,691.00
          Current
211030    Accounts Payable-Public-Current                      5,060.00
211035    Accounts Payable-Public-Current                     27,875.03
211090    Accounts Payable-Receipt Accrual                13,496,922.40
211100    Accounts Payable-Government-Current            988,833,978.49
211200    Accounts Payable-Government-Noncurrent                  44.48
211300    Accounts Payable-Public-Current                 87,626,351.86
213000    Contract Holdback-Nongovernment-Funded           1,876,550.29
221012    Accrued Incentive Awards                               125.52
221100    Accrued Payroll-Civilian                        40,536,906.52
221200    Accrued Payroll-Military                     1,874,690,465.38
221300    Accrued Payroll-Civilian-Employer Share-        16,145,298.83
          Fringe Benefits
221400    Accrued Payroll-Military-Employer Share-      155,444,653.83
          Fringe Benefits
222100    Accrued Annual Leave-Civilian-Unfunded            877,825.16
231012    Unearned Revenue-Advances-Other Corps              52,587.70
231013    Unearned Revenue-Advances-Non Corps-              723,114.78
          Other-DoD




                               16
Account                  Account Title                   Amount ($)
Number
231014    Unearned Revenue-Advances-Government-              607,878.48
          Non DoD
231035    Unearned Revenue Advances-Public                    558,943.73
231100    Unearned Revenue-Advances from                    5,631,605.03
          Government Agencies and Funds
231200    Unearned Revenue-Advances from the Public           82,895.81
240011    Deposit Fund, Clearing Accounts-Liabilities     12,755,283.58
241100    Deposit Fund Liabilities                       326,112,372.82
292000    Contingent Liabilities-Non Government-         231,363,440.00
          Unfunded-Non Current
296001    Account Payable Canceled-Nongovernment-           5,378,797.45
          Unfunded
296011    Account Payable Canceled-Government-               276,636.26
          Unfunded
298024    Collected Custodial Liability-Government-             8,000.00
          Non DoD
298025    Collected Custodial Liability-Public                 78,101.78
299000    Other Liabilities                                 1,750,884.24
310000    Appropriated Capital                          3,308,602,104.28
310005    Appropriated Capital Funding Canceled                82,092.30
          Payable
310100    Unexpended Appropriations-Appropriations        70,780,026.87
          Received
310700    Unexpended Appropriations Used                 581,418,111.56
321300    Capital Investments-Special Defense             38,247,789.47
          Acquisition Trust Fund
322000    Transfers-In from Others Without               209,290,530.98
          Reimbursement
323100    Transfers-Out to Government Agencies           575,831,274.65
          Without Reimbursement
323200    Transfers-Out to All Others Without             79,827,045.00
          Reimbursement
331000    Cumulative Results of Operations               727,099,640.01
331010    Cumulative Results of Operations-Capital        86,794,113.44
          Investments
331020    Cumulative Results of Operations-Non            19,301,915.90
          Capital Investments
331040    Cumulative Results of Operations-Revolving                  .02
          Fund Unexpended
331200    Cumulative Results of Operations-Other          48,401,000.00
          Revolving Funds


                               17
Account                 Account Title                    Amount ($)
Number
331300    Cumulative Results of Operations-Special            32,842.50
          Defense Acquisitions Trust Fund
331800    Cumulative Results of Operations-Other       55,651,083,800.87
          Appropriations
332300    Net Results of Operations-Special Defense          354,538.51
          Acquisition Trust Funds
332800    Net Results of Operations-Other              19,272,790,014.61
          Appropriations
350100    Future Funding Requirements                    231,363,440.00
361000    Uncollected Revenue-General Fund-                2,627,638.69
          Miscellaneous Receipts
362000    Funds Returned to General Fund-                    552,239.65
          Miscellaneous Receipts
420100    Total Actual Resources-Collected                    172,764.00
421010    Customer Orders Accepted-Automatic            8,397,335,402.47
          Apportionment
421020    Customer Orders Accepted-Specific               32,828,109.78
          Apportionment
422100    Customer Orders Accepted-Automatic              10,401,845.44
          Apportionment
422200    Customer Orders Accepted-Specific                  643,160.12
          Apportionment-Funded
422210    Unfilled Customer Orders with Advance-            1,303,411.44
          Automatic
423100    Unfilled Customer Orders-Without Advance-       56,936,481.80
          Automatic Apportionment
423200    Unfilled Customer Orders-Without Advance-         5,849,998.53
          Specific Apportionment-Funded
423300    Unfilled Customer Orders-With Advance-              27,425.61
          Automatic Apportionment
423400    Unfilled Customer Orders-With Advance-              17,035.33
          Specific Apportionment-Funded
425100    Reimbursements Earned-Uncollected-              14,000,124.84
          Automatic Apportionment
425110    Reimbursements and Other Income Earned-           1,225,782.61
          Receivable-Uncollected-Automatic
425120    Reimbursements and Other Income Earned-             15,653.40
          Receivable-Uncollected-Specific
425200    Reimbursements Earned-Uncollected-Specific      24,318,114.33
          Apportionment-Funded
425210    Reimbursements and Other Income Earned-            424,287.70
          Collected-Automatic


                              18
Account                 Account Title                     Amount ($)
Number
425300    Reimbursements Earned-Collected-Automatic         16,331,991.08
          Apportionment
425400    Reimbursements Earned-Collected-Specific           2,543,482.32
          Apportionment-Funded
431010    Anticipated Recoveries of Prior Year              21,053,593.17
          Obligations-Direct
431020    Anticipated Recoveries of Prior Year               1,426,084.71
          Obligations-Reimbursable Program
432100    Actual Recoveries of Prior Year Obligation-      655,864,837.05
          Direct
432200    Actual Recoveries of Prior Year Obligation-           32,618.54
          Reimbursable
433000    Funds Generated from                           5,420,577,972.18
          Recoveries/Deobligations of Prior Year Funds
444000    Revolving Funds Available for                  2,142,750,124.00
          Apportionment
445000    Authority Available for Apportionment        329,397,831,487.83
451000    Apportionments                                         1,000.00
451100    Unallocated Apportionment-Direct Authority-      529,424,957.57
          Current Period
451200    Unallocated Apportionment-Direct Authority-       14,635,000.00
          Subsequent Period
451700    Unallocated Apportionment-Reserve for Other    8,179,491,331.00
          Anticipated Resources
453000    Allocation From Others                        24,041,294,454.96
454100    Allocations Issued-Direct Authority-Current               84.77
          Period
455000    Internal Fund Distributions Received               6,424,182.19
456100    Unallotted Allocation-Direct Program-Current 376,248,475,582.44
          Period
456200    Unallotted Allocation-Direct Program-          1,636,220,702.92
          Subsequent Period
456300    Unallotted Allocation-Reimbursable Program-    4,523,149,293.02
          Current Period
457100    Allotments Issued-Direct Program-Current         169,605,631.90
          Period
457300    Allotments Issued-Reimbursable Program-               91,800.58
          Current Period
458010    Allotted Direct Authority-Current Period       2,251,104,144.02
458100    Automatic Reimbursement Authority                 20,954,506.03



                              19
Account                 Account Title                  Amount ($)
Number
459100    Allotted Reimbursable Program-Current       2,354,393,304.12
          Period
459200    Allotted Reimbursable Program-Subsequent          12,435.66
          Period
461000    Allotments-Realized Resources                      1,640.57
461010    Allotments-Realized Resources-Direct-         13,418,791.54
          Current Period
461019    Allotment-Realized Resources-Direct-One           98,245.86
          Percent-Current
461040    Allotments-Realized Resources-                16,663,829.94
          Reimbursable-Current Period
461100    Uncommitted/Unobligated Allotment-Direct    3,627,977,620.46
          Authority-Current Period
461200    Uncommitted/Unobligated Allotment-Direct        6,097,794.03
          Authority-Subsequent Period
461400    Uncommitted/Unobligated Allotment-            26,619,651.03
          Reimbursable-Current Period
462021    Unobligated Funds Not Subject To                6,101,512.85
          Apportionment-Reimbursable-Automatic
462100    Program Annual Anticipated Rest of Year-      13,818,203.08
          Automatic
463200    Funded Reimbursement Authority Reserved           54,037.80
          for Receipt of Orders
465010    Allotments-Expired Authority-Direct              111,486.97
470000    Commitments                                      184,056.74
471000    Commitments Outstanding-Direct                 5,633,700.46
472000    Commitments Outstanding-Reimbursable               5,501.48
480110    Undelivered Orders-Unpaid-Reimbursable       332,477,648.26
480119    Unexpended Obligations-Unpaid-Direct-One          17,525.36
          Percent
480120    Undelivered Orders-Unpaid-Direct-             35,081,415.84
          Category A
480121    Unexpended Obligations-Unpaid-                        27.93
          Reimbursable-Without Advance
480122    Unexpended Obligations-Unpaid-                14,070,658.19
          Reimbursable-With Advance
480210    Undelivered Orders-Paid-Reimbursable        1,829,442,654.66
480220    Undelivered Orders-Paid-Direct-Category A          64,886.71
481100    Undelivered Orders without Advance-Direct      55,552,557.20
          Program



                              20
Account                 Account Title                  Amount ($)
Number
481200    Undelivered Orders with Advance-Direct             1,391.25
          Program
482100    Undelivered Orders without Advance-              141,831.10
          Reimbursable Program
482200    Undelivered Orders with Advance-                  13,940.15
          Reimbursable Program
487100    Downward Adjustments of Prior-Year Unpaid         12,435.66
          Unexpended Obligations
490100    Expended Authority-Unpaid-Direct-Not                 491.00
          Subject to Apportionment
490110    Expended Authority-Unpaid-Reimbursable          5,401,384.55
490111    Expended Authority-Unpaid-Direct Basic             20,971.44
490120    Expended Authority-Unpaid-Category A              867,437.18
490121    Expended Authority-Unpaid-Reimbursable          1,717,615.21
490210    Expended Authority-Paid-Reimbursable                4,563.21
490211    Expended Authority-Paid-Direct-Basic              924,878.82
490220    Expended Authority-Paid-Direct-Category A          87,304.52
490230    Expended Authority-Paid-Direct-Category B             254.04
490231    Expended Authority-Paid-Reimbursable               17,861.27
491000    Accrued Expenditures-Unpaid-Direct          2,772,382,444.79
492000    Accrued Expenditures-Unpaid-Reimbursable       11,681,168.73
492100    Accrued Expenditures-Unpaid-Reimbursable        6,738,833.28
493100    Accrued Expenditures-Paid-Direct              164,184,941.24
493200    Accrued Expenditures-Paid-Refunds Due-             34,818.02
          Direct
494100    Accrued Expenditures-Paid-Reimbursable        47,591,421.65
494200    Accrued Expenditures-Paid-Refunds Due-               731.38
          Reimbursable
510010    Revenue for Goods Sold-Public                  3,706,172.12
510020    Revenue From Goods Sold-Intragovernmental      8,630,586.33
510035    Revenue From Goods Sold-Public                       198.21
510042    Revenue From Goods Sold-Other Corps               19,878.40
510043    Revenue From Goods Sold-Non Corps-Other           73,403.42
          DoD
520010    Revenue From Services Provided-Public          1,171,317.89
520020    Revenue From Services Provided-                3,861,746.64
          Intragovernmental
520035    Revenue From Services Provided-Public                378.56
520041    Revenue From Services Provided-Intra                 488.51
          District


                              21
Account                 Account Title                  Amount ($)
Number
520042    Revenue From Services Provided-Other Corps        46,794.96
520043    Revenue From Services Provided-Non Corps-         43,355.57
          Other DoD
520044    Revenue From Services Provided-Government         59,184.20
          Non DoD
531035    Interest Revenue-Public                           13,559.84
532035    Penalties, Fines, & Administrative Fees           10,649.16
          Revenue
570000    Appropriated Capital Used                    627,023,451.81
570010    Expended Appropriations Used                  14,130,867.95
572012    Transfers-In Without Reimbursement-Other          95,402.50
          Corps
573013    Transfers-Out Without Reimbursement-Non        1,656,190.65
          Corps-Other DoD
590035    Other Revenue-Public                             77,281.05
590044    Other Revenue-Government-Non DoD                  6,980.00
590910    Contra Revenue for Other Revenue-               391,845.08
          Government-Exchange
599035    Collections For Others-Public                     78,101.78
599044    Collections For Others-Government-Non DoD          8,000.00
599135    Accrued Collections For Others-Public             21,990.49
599144    Accrued Collections For Others-Government-        22,200.00
          Non DoD
610000    Operating Expenses/Program Costs                 477,541.18
610011    Personnel Compensation-Civilian                  558,491.08
610015    Annual Leave                                      56,294.77
610017    Applied Overhead                                 341,167.15
610021    Travel and Transportation of Persons              24,729.56
610022    Transportation of Things                          17,889.47
610023    Rent, Communications and Utilities                93,343.15
610024    Printing and Reproduction                          1,682.49
610031    Supplies and Materials                        41,424,039.37
610032    Equipment (Not Capitalized)                          436.60
610050    Other Services                                     3,652.18
610051    Other Services-Intra District                  3,632,341.74
610052    Other Services-Other Corps                       172,378.07
610053    Other Services-Non Corps-Other DoD             1,048,438.60
610054    Other Services-Government Non DoD              3,752,963.95
610055    Other Services-Public                             51,019.05


                              22
Account                  Account Title                   Amount ($)
Number
610060    Cost of Goods Sold-Public                              521.45
610072    Cost of Goods Sold-Customer Orders-DoD              82,365.28
610082    Cost of Goods Sold-Customer Orders-                 59,184.20
          Government-Non DoD
611100    Personnel Compensation-Civilian                  84,903,237.88
611200    Personnel Compensation-Military                  49,700,324.76
611300    Personnel Benefits-Civilian                       5,879,106.39
611400    Personnel Benefits-Military                         532,173.20
611500    Benefits for Former Personnel                       804,357.37
611600    Travel and Transportation of Persons             31,234,020.11
611700    Transportation of Things                          4,731,940.07
611800    Rent, Communications and Utilities                9,710,521.01
611900    Printing and Reproduction                         1,167,642.08
612000    Other Services-Nongovernment                  1,475,841,616.93
612100    Supplies and Materials                          598,159,853.88
612200    Equipment (Not Capitalized)                      13,663,697.38
612400    Insurance, Claims and Indemnities                     6,314.00
613000    Annual Leave                                     35,493,270.43
633000    Other Interest Expenses                              17,194.22
640051    Personnel Benefits-Civilian                          96,133.80
650010    Cost of Goods Sold-Public                        10,214,051.78
650020    Cost of Goods Sold-Intragovernmental             33,117,127.02
672001    Bad Debt Expense Related to Uncollectible               138.00
          Non Credit Reform Receivables-Non
          Government
719100    Inventory Gains                                  38,217,510.99
                         Total                        884,392,256,589.93




                               23
Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense (Comptroller)/Chief Financial Officer
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)

Department of the Army
Assistant Secretary of the Army (Financial Management and Comptroller)
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Auditor General, Department of the Air Force

Other Defense Organizations
Director, Defense Finance and Accounting Service
Director, Defense Finance and Accounting Service Indianapolis

Non-Defense Federal Organization
Office of Management and Budget

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform


                                          24
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member (cont’d)
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        25
Under Secretary of Defense (Comptroller)
Comments




                      27
28
Defense Finance and Accounting Service Center
Indianapolis Comments




                      29
30
Department of the Army Comments




                    31
32
Team Members
The Office of the Deputy Inspector General for Auditing of the Department of
Defense, Defense Financial Auditing Service prepared this report. Personnel of
the Office of the Inspector General of the Department of Defense who contributed
to the report are listed below.

Paul J. Granetto
Marvin L. Peek
Jack L. Armstrong
Paul C. Wenzel
Andrew D. Gum
Thomas W. Shurman
